EXHIBIT E

Case: 2:16-cv-00658-EAS-CMV Doc #: 150-2 Filed: 11/14/18 Page: 1 of 1 PAGEID #: 6510

ATHENS COUNTY ENGINEER'S OFFICE
Jeff Maiden, P.E., P.S., Athens County Engineer
16000 Canaanville Road • Athens, Ohio 45701
Office (740) 593‐5514 • Fax (740) 592‐4616

PRESS RELEASE‐ October 19, 2018
I am pleased with the decision. As the county Engineer, I am charged under Ohio law with maintaining
the county roads, and as a public servant I care about the well‐being of all residents. Following three
years of litigation, the federal district court correctly determined that Mrs. Madej could not establish
legally, or factually, that chip sealing Dutch Creek Rd. would cause her serious physical injury. I am
grateful that resources were devoted to the defense of this important case regarding the ability of
elected officials to run their offices as they see fit, and without fear of litigation.
As the public is aware, the road conditions on the 2 mile section of Dutch Creek Road subject to the
injunction have deteriorated substantially in the past 3 years. The road needs substantial work including
ditching and berming, culvert replacement, and road reconstruction/ resurfacing. I will begin the project
planning process and it will be scheduled when funding is available. In the meantime, I intend on doing
maintenance work on Dutch Creek this fall and winter. That work will consist primarily of patching
potholes and grading. I will notify the Madejs well in advance before doing road work on that section of
Dutch Creek.

